~|

OCKLE

2311 Douglas Street A “ Sree
Omaha, Nebraska 68102-1214 Legal Briefs aires

Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 edie

(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 19-859

STUART FORCE, et al.,
Petitioners,
v.
FACEBOOK, INC.,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the REPLY BRIEF FOR
PETITIONERS in the above entitled case complies with the typeface requirement of Supreme
Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point
for the footnotes, and this brief contains 2997 words, excluding the parts that are exempted by
Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 20th day of April, 2020.
Jam duly authorized under the laws of the State of Nebraska to administer oaths.

errmmee| Kerse. 9. Llano Oondene be Ole

My Comm. Exp. September 5, 2023
Notary Public Affiant

 

39754
